APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
_______________________

No. 17-2181

_______________________

Melanie Kelsay,
Plaintiff-Appellee,
v.
Matt Ernst, individually and in his official capacity,
Defendant-Appellant,
Jay Welch, individually and in his official capacity;
City of Wymore, Nebraska; Russell Kirkpatrick,
individually and in his official capacity; Matthew
Bornmeier, individually and in his official capacity,
Defendants,
_______________________

Appeal from United States District Court for
the District of Nebraska - Lincoln
_______________________

Submitted: April 19, 2019
Filed: August 13, 2019
_______________________

Before SMITH, Chief Judge, BEAM, LOKEN,
COLLOTON, GRUENDER, BENTON, SHEPHERD,
KELLY, ERICKSON, GRASZ, STRAS, and, KOBES,
Circuit Judges, En Banc.
_______________________

2a
COLLOTON, Circuit Judge.
Melanie Kelsay sued sheriff’s deputy Matt Ernst
under 42 U.S.C. § 1983, alleging that Ernst used excessive force while arresting Kelsay. The district
court denied Ernst’s motion for summary judgment,
and Ernst appeals on the ground that he is entitled to
qualified immunity. We conclude that Ernst did not
violate a clearly established right of Kelsay under the
Fourth Amendment, so we reverse the order.
The question presented is whether Ernst is entitled to summary judgment, so while there are some
disputes about the facts, we ultimately consider the
evidence in the light most favorable to Kelsay. On
May 29, 2014, Kelsay, her three children, and her
friend Patrick Caslin went swimming at a public pool
in Wymore, Nebraska. At one point, Caslin came up
behind Kelsay like he was going to throw her in the
pool, and she objected. Although Kelsay later explained that she and Caslin were “just playing
around,” some onlookers thought Caslin was assaulting her, and a pool employee contacted the police.
As Kelsay and her party left the pool complex, they
encountered Wymore Police Chief Russell Kirkpatrick
and Officer Matthew Bornmeier. Kirkpatrick informed Caslin that he was under arrest for domestic
assault and escorted him to a patrol car. Kelsay was
“mad” that Caslin was arrested. She tried to explain
to the officers that Caslin had not assaulted her, but
she thought that the officers could not hear her.
According to Kirkpatrick, Caslin became enraged
once they reached the patrol car and resisted going inside. Kirkpatrick says that after he secured Caslin in
handcuffs, Kelsay approached the patrol car and stood

3a
in front of the door. Kirkpatrick claims that he told
her to move three times before Bornmeier escorted her
away so that Kirkpatrick could place Caslin into the
patrol car.
Kelsay denies approaching the patrol car until after Caslin was inside the vehicle. At that point, while
Kirkpatrick interviewed witnesses, she walked over to
the car to talk to Caslin. Bornmeier told her to back
away from the vehicle, and Kelsay says that she complied. Two more officers—Deputy Matt Ernst and
Sergeant Jay Welch from the Gage County Sheriff’s
Office—then arrived on the scene. When they appeared, Kelsay was standing about fifteen feet from
the patrol car where Caslin was detained, and twenty
to thirty feet from the pool’s exit doors. Kelsay’s
younger daughter was standing next to her; her older
daughter and son were standing by the exit doors.
Kelsay stood approximately five feet tall and weighed
about 130 pounds.
Police Chief Kirkpatrick told Ernst and Welch that
Kelsay had interfered with Caslin’s arrest. According
to Welch, Kirkpatrick explained that Kelsay tried to
prevent Caslin’s arrest by “trying to pull the officers
off and getting in the way of the patrol vehicle door.”
Kirkpatrick thus decided that Kelsay should be arrested.
In the meantime, Kelsay’s older daughter was near
the pool exit doors yelling at a female patron who the
daughter assumed had contacted the police. Kelsay
started to walk toward her daughter, but Ernst ran up
behind Kelsay, grabbed her arm, and told her to “get
back here.” Kelsay stopped walking and turned
around to face Ernst, at which point Ernst let go of
Kelsay’s arm. R. Doc. 53-8, at 54, lines 10-12. Kelsay

4a
told Ernst that “some bitch is talking shit to my kid
and I want to know what she’s saying,” and she continued walking away from Ernst and toward her
daughter and the woman. The patron testified that
she did not feel threatened at that particular moment,
but later realized that Kelsay was “coming towards
me to hurt me or yell at me or whatever she was planning on doing.”
After Kelsay walked a few feet away from Ernst on
the grass, the deputy placed Kelsay in a bear hug,
threw her to the ground, and placed her in handcuffs.
Kelsay momentarily lost consciousness after she hit
the ground. When she regained her senses, she was
already handcuffed, and she began screaming about
pain in her shoulder.
Ernst drove her to the Gage County jail, but a corrections officer recommended that Kelsay be examined by a doctor. Kirkpatrick took Kelsay to a hospital, where she was diagnosed with a fractured collarbone. Kelsay ultimately was convicted of two misdemeanor offenses after pleading no contest to attempted obstruction of government operations and
disturbing the peace.
Kelsay later sued the City of Wymore and Kirkpatrick, Bornmeier, Ernst, and Welch in their individual
and official capacities, alleging wrongful arrest, excessive force, and deliberate indifference to medical
needs. The district court granted summary judgment
in favor of all defendants on all claims but one. The
court ruled that Deputy Ernst was not entitled to
qualified immunity on a claim that he used excessive
force to arrest Kelsay when he took her to the ground
and caused the broken collarbone. The court reasoned
that the evidence, viewed in the light most favorable

5a
to Kelsay, could lead a factfinder to conclude that
Ernst’s use of force was unreasonable and violated
Kelsay’s clearly established rights under the Fourth
Amendment.
As an initial matter, Kelsay challenges our jurisdiction over this appeal. We have jurisdiction over an
interlocutory appeal of an order denying qualified immunity if the appeal seeks review of a purely legal issue, but we ordinarily lack jurisdiction to decide
“which facts a party may, or may not, be able to prove
at trial.” Johnson v. Jones, 515 U.S. 304, 313 (1995).
Unless the district court’s assumed facts are blatantly
contradicted by incontrovertible evidence of a sort
that is not present here, we cannot entertain a contention by Ernst disputing the district court’s determination about which facts Kelsay could prove at trial—for
example, that Kelsay was not in a position to threaten
witnesses or that she posed no danger to anyone. See
Wallace v. City of Alexander, 843 F.3d 763, 766-67 (8th
Cir. 2016). But Ernst ultimately raises the purely legal question whether the evidence viewed in the light
most favorable to Kelsay shows that he violated her
clearly established rights under the Fourth Amendment. We have jurisdiction to decide that question.
See Shannon v. Koehler, 616 F.3d 855, 861 (8th Cir.
2010).
Qualified immunity shields a government official
from suit under § 1983 if his “conduct does not violate
clearly established statutory or constitutional rights
of which a reasonable person would have known.”
Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982). For a
right to be clearly established, “[t]he contours of the
right must be sufficiently clear that a reasonable official would understand that what he is doing violates

6a
that right.” Anderson v. Creighton, 483 U.S. 635, 640
(1987). A plaintiff must identify either “controlling
authority” or “a robust ‘consensus of cases of persuasive authority’” that “placed the statutory or constitutional question beyond debate” at the time of the alleged violation. Ashcroft v. al-Kidd, 563 U.S. 731,
74142 (2011) (quoting Wilson v. Layne, 526 U.S. 603,
617 (1999)). In other words, the law at the time of the
events in question must have given the officers “fair
warning” that their conduct was unconstitutional.
Hope v. Pelzer, 536 U.S. 730, 741 (2002).
The state of the law should not be examined at a
high level of generality. “The dispositive question is
whether the violative nature of particular conduct is
clearly established.” Mullenix v. Luna, 136 S. Ct. 305,
308 (2015) (per curiam) (internal quotation marks
omitted). “Such specificity is especially important in
the Fourth Amendment context, where . . . it is sometimes difficult for an officer to determine how the relevant legal doctrine, here excessive force, will apply to
the factual situation the officer confronts.” Id. (internal quotation marks omitted). “Use of excessive force
is an area of the law in which the result depends very
much on the facts of each case, and thus police officers
are entitled to qualified immunity unless existing
precedent squarely governs the specific facts at issue.”
Kisela v. Hughes, 138 S. Ct. 1148, 1153 (2018) (per curiam) (internal quotation marks omitted).
In this case, Kelsay alleged that Ernst’s takedown
maneuver violated her right under the Fourth
Amendment to be free from the use of unreasonable
force. The district court rejected Ernst’s defense of
qualified immunity. The court reasoned that where a
nonviolent misdemeanant poses no threat to officers

7a
and is not actively resisting arrest or attempting to
flee, an officer may not employ force just because the
suspect is interfering with police or behaving disrespectfully. See Shekleton v. Eichenberger, 677 F.3d
361, 366-67 (8th Cir. 2012); Montoya v. City of Flandreau, 669 F.3d 867, 871-72 (8th Cir. 2012); Johnson
v. Carroll, 658 F.3d 819, 827 (8th Cir. 2011); Shannon,
616 F.3d at 864-65; Brown v. City of Golden Valley,
574 F.3d 491, 499 (8th Cir. 2009); Kukla v. Hulm, 310
F.3d 1046, 1050 (8th Cir. 2002). The court ruled that
the excessiveness of Ernst’s use of force would have
been apparent to a reasonable officer, because while
Kelsay “was not precisely ‘compliant’—that is, she had
been told to stop but kept walking instead—she was
not using force or actively resisting arrest, and posed
no danger to anyone.”
We respectfully disagree with this conclusion. It
was not clearly established in May 2014 that a deputy
was forbidden to use a takedown maneuver to arrest
a suspect who ignored the deputy’s instruction to “get
back here” and continued to walk away from the officer. None of the decisions cited by the district court
or Kelsay involved a suspect who ignored an officer’s
command and walked away, so they could not clearly
establish the unreasonableness of using force under
the particular circumstances here.
None of Kelsay’s authorities “squarely governs the
specific facts at issue.” Kisela, 138 S. Ct. at 1153.
Shekleton addressed an officer’s use of a taser against
a compliant, nonviolent, nonfleeing misdemeanant after the officer unsuccessfully sought to handcuff the
suspect and the two men accidentally fell to the
ground. 677 F.3d at 366-67. Shannon held that an
officer acted unreasonably in a pub by performing a

8a
takedown of a bar owner who was not reasonably suspected of committing any crime, did not flee or actively
resist arrest, and posed little or no threat to the officer
or others. 616 F.3d at 862-63 & n.3. Brown involved
a nonviolent, nonfleeing passenger in a car who refused an officer’s commands to discontinue a cell
phone call with an emergency operator; the court held
that shocking her with a taser for failing to get off the
phone was an unreasonable use of force. 574 F.3d at
496-98. And Montoya held that a police officer’s
takedown of a suspect was unreasonable when the
nonthreatening, nonresisting, nonfleeing misdemeanant merely raised her hands above her head in frustration while standing ten to fifteen feet away from
the officer. 669 F.3d at 871-72.
Decisions concerning the use of force against suspects who were compliant or engaged in passive resistance are insufficient to constitute clearly established law that governs an officer’s use of force against
a suspect who ignores a command and walks away.
The Supreme Court recently vacated the denial of
qualified immunity for an officer who executed a
takedown of a man who posed no apparent danger but
disobeyed the officer’s command not to close an apartment door and then “tried to brush past” the officer.
City of Escondido v. Emmons, 139 S. Ct. 500, 503-04
(2019) (per curiam). On remand, the Ninth Circuit
concluded that precedent involving force employed in
response to passive resistance was not sufficiently on
point to constitute clearly established law that governed the takedown at the apartment door. Emmons
v. City of Escondido, 921 F.3d 1172, 1175 (9th Cir.
2019) (per curiam). This court’s precedent likewise

9a
did not clearly establish that Ernst was forbidden to
perform a takedown when Kelsay walked away.
In this case, moreover, Ernst knew when he spoke
to Kelsay that she was going to be arrested for attempting to interfere with Caslin’s arrest. Kelsay
then walked toward another patron after stating that
“some bitch is talking shit to my kid and I want to
know what she’s saying.” Even if a jury could find
that Kelsay posed no danger to anyone at the time of
the seizure, a reasonable officer in Ernst’s position
could have believed that it was important to control
the situation and to prevent a confrontation between
patrons that could escalate. This is another factor
that was not present in previous cases, and reasonableness depends on the totality of the circumstances.
Although the principal dissent suggests that there
is a factual dispute about whether Kelsay complied
with Ernst’s command by momentarily stopping and
turning around, the relevant question is not whether
Kelsay complied as a factual matter. The issue is
whether a reasonable officer could have believed that
Kelsay was not compliant. Whether the officer’s conclusion was reasonable, or whether he was “reasonably unreasonable” for purposes of qualified immunity,
see Anderson, 483 U.S. at 643-44, are questions of law,
not fact. They are matters for resolution by the court,
not by a jury. And Ernst’s conclusion that Kelsay
failed to comply was objectively reasonable. A reasonable police officer could expect Kelsay to understand
his command to “get back here” as an order to stop and
remain, not as a directive merely to touch base before
walking away again.
Our closest decision on point supports qualified
immunity for Ernst. In Ehlers v. City of Rapid City,

10a
846 F.3d 1002 (8th Cir. 2017), we held that an officer
did not violate the Fourth Amendment by executing a
takedown of a nonviolent misdemeanant when the officer twice ordered the suspect to place his hands behind his back, but the suspect continued walking
away. Id. at 1011. The court concluded that a reasonable officer would interpret the subject’s behavior as
“noncompliant,” and reasoned that he “at least appeared to be resisting” when he continued to walk
away, so the officer was “entitled to use the force necessary to effect the arrest.” Id.
Under Kelsay’s version of the facts, Ernst told
Kelsay only once to “get back here” before she continued to walk away, but even if there might be a constitutionally significant distinction between one command and two, no such rule was clearly established
when Ernst made his arrest. Where the district court
correctly acknowledged that Kelsay “had been told to
stop but kept walking instead,” and this court’s most
analogous decision in Ehlers held that it was reasonable to perform a takedown of a suspect who disobeyed
two commands and walked away, we cannot deem this
“the rare obvious case” in which “the unlawfulness of
the officer’s conduct is sufficiently clear even though
existing precedent does not address similar circumstances.” District of Columbia v. Wesby, 138 S. Ct.
577, 590 (2018) (internal quotation marks omitted).
The constitutionality of Ernst’s takedown was not beyond debate, and he is thus entitled to qualified immunity.

11a
For these reasons, the order of the district court
denying qualified immunity is reversed. 1

1 Kelsay also appears to contend that Ernst violated her Fourth
Amendment rights by failing to remove handcuffs despite her repeated complaints of shoulder pain. The district court did not
address this claim, and Ernst does not appeal any ruling about
it. Accordingly, we do not consider whether Kelsay properly presented this claim in the district court or, if so, whether it would
survive a motion for summary judgment.

12a
SMITH, Chief Judge, with whom KELLY,
ERICKSON, and GRASZ, Circuit Judges, join, dissenting.
I respectfully dissent. Our case law was sufficiently clear at the time Deputy Ernst forcefully arrested Kelsay to have put a reasonable officer on notice that the use of force against a non-threatening
misdemeanant who was not fleeing, resisting arrest,
or ignoring other commands violates that individual’s
right to be free from excessive force.
To satisfy the specificity requirement for law to be
clearly established, the Supreme Court “ha[s] stressed
the need to ‘identify a case where an officer acting under similar circumstances . . . was held to have violated the Fourth Amendment.’” Wesby, 138 S. Ct. at
590 (ellipsis in original) (quoting White v. Pauly, 137
S. Ct. 548, 552 (2017) (per curiam)). The Supreme
Court has made clear that it does “not require a case
directly on point.” al-Kidd, 563 U.S. at 741. “But a
body of relevant case law is usually necessary to
clearly establish the answer . . . .” Emmons, 139 S. Ct.
at 504 (ellipsis in original) (quoting Wesby, 138 S. Ct.
at 590). “[E]xisting precedent must have placed the
statutory or constitutional question beyond debate.”
al-Kidd, 563 U.S. at 741. Thus, “[t]o be clearly established, a legal principle must have a sufficiently clear
foundation in then-existing precedent.” Wesby, 138 S.
Ct. at 589. The legal principle set forth in that precedent “must be settled law, which means it is dictated

13a
by controlling authority 2 or a robust consensus of
cases of persuasive authority.” Id. at 589–90 (cleaned
up). “The precedent must be clear enough that every
reasonable official would interpret it to establish the
particular rule the plaintiff seeks to apply.” Id. at 590.

I. Existing Precedent on Excessive Force
“[W]hether an officer has used excessive force ‘requires careful attention to the facts and circumstances
of each particular case, including the severity of the
crime at issue, whether the suspect poses an immediate threat to the safety of the officers or others, and
whether he is actively resisting arrest or attempting
to evade arrest by flight.’” Kisela, 138 S. Ct. at 1152
(quoting Graham v. Connor, 490 U.S. 386, 396 (1989)).
Our precedent has applied these factors to circumstances similar to Kelsay’s and held that “it is clearly
established that force is least justified against nonviolent misdemeanants who do not flee or actively resist
arrest and pose little or no threat to the security of the
officers or the public.” Brown, 574 F.3d at 499. In
Brown, law enforcement pulled over the plaintiff’s
husband for allegedly driving under the influence. Id.
at 493–94. After the husband was handcuffed, the
plaintiff, who was seated in the front passenger seat,
became frightened and called 911 on her cell phone.
Id. at 494. An officer told her to hang up. Id. The passenger responded that she was frightened and wanted
to remain on the phone with 911. Id. The officer ordered the plaintiff a second time to get off the phone,
2 The Supreme Court has “[a]ssum[ed] for the sake of argument
that a controlling circuit precedent could constitute clearly established federal law.” Carroll v. Carman, 135 S. Ct. 348, 350
(2014) (per curiam).

14a
and the plaintiff again responded that she was frightened. Id. The officer then entered the car and tased
the plaintiff. Id.
Ultimately, the husband was ticketed for speeding,
while the plaintiff was charged with obstruction of legal process and an open bottle violation. Id. at 494–
95.
We held that the responding officer’s use of force
was not objectively reasonable under the circumstances. Id. at 496. First, the passenger was suspected
of committing a misdemeanor open bottle violation as
opposed to “a severe or violent crime.” Id. Second, the
passenger “posed at most a minimal safety threat to”
the officers. Id. at 497. At no time did the passenger
“threaten the officers, verbally or physically.” Id.
Third, the passenger “was not actively resisting arrest
or attempting to flee.” Id. Instead, the passenger’s
“principal offense . . . was to disobey the commands to
terminate her call to the 911 operator.” Id. “Whether
[the responding officer] reasonably interpreted [the
passenger’s] refusal as a realistic threat to his personal safety or whether it constituted nothing more
than an affront to his command authority,” we explained, was “a matter for a jury to decide.” Id.
Second, in Shannon, an officer responded to a call
for a disturbance between two females at a bar involving an injured person. 616 F.3d at 858. At the scene,
the female who called 911 told the officer “that one of
the females inside [the bar] had been ‘touched or
grabbed by the male who was in the bar.’” Id. (quotation omitted). Once inside the establishment, the
plaintiff walked toward the officer and, “using profanity,” told the officer that he owned the bar and did not
need the officer. Id. (quotation omitted). The plaintiff

15a
ordered the officer out of the bar. Id. The plaintiff
“eventually [came] within arm[’]s length of [the officer].” Id. (second alteration in original) (quotation
omitted). While the officer alleged that the plaintiff
poked him in the chest two times, the plaintiff denied
doing so. Id. The officer performed a takedown of the
plaintiff, causing the plaintiff “to hit a bar stool and
land on the hardwood floor.” Id. (quotation omitted).
The officer had to use additional force in handcuffing
the plaintiff. Id. The plaintiff alleged he was injured
during the arrest. Id. The plaintiff “was convicted in
state court of interfering with official acts, a misdemeanor offense.” Id. at 863 n.4.
In holding that the officer’s use of force was not objectively reasonable under the circumstances based on
the plaintiff’s version of events, we noted that the
plaintiff “was not suspected of committing a serious
crime, that he did not attempt to flee or actively resist
arrest, and that he posed little or no threat to [the officer] or others.” Id. at 862. “It follow[ed], a fortiori,
that using enough force to cause the injuries that [the
plaintiff] allege[d]—a partially collapsed lung, multiple fractured ribs, a laceration to the head, and various contusions—was also unreasonable.” Id. at 863
(citing Crumley v. City of St. Paul, 324 F.3d 1003,
1007 (8th Cir. 2003) (“In addition to the circumstances
surrounding the use of force, we may also consider the
result of the force.”)). We next held that the plaintiff’s
constitutional right to be free from excessive force in
such circumstances was clearly established. Id. at
864. “Long before [the date of the incident], this court
(among others) had announced that the use of force
against a suspect who was not threatening and not resisting may be unlawful.” Id. We recognized that

16a
“[a]lthough [the plaintiff] greeted [the officer] in a disrespectful, even churlish manner, that alone did not
make [the officer’s] use of force acceptable under extant law.” Id. at 865 (citing Bauer v. Norris, 713 F.2d
408, 412 (8th Cir. 1983) (“‘[T]he use of any force by
officers simply because a suspect is argumentative,
contentious, or vituperative’ is not to be condoned.”
(alteration in original) (quoting Agee v. Hickman, 490
F.2d 210, 212 (8th Cir. 1974)))).
Third, Montoya involved two officers responding to
a domestic dispute between the plaintiff and her exboyfriend at the ex-boyfriend’s home. 669 F.3d at 869.
Upon their arrival to the residence, the officers witnessed the plaintiff and her ex-boyfriend arguing outside. Id. Thereafter, the plaintiff, the ex-boyfriend, the
plaintiff’s mother, the plaintiff’s friend, and the officers stood in a circle. Id. The exboyfriend stood between
the two officers, while the plaintiff stood opposite of
them, approximately ten to fifteen feet away. Id. The
plaintiff and the ex-boyfriend were having words. Id.
The officers stated that the plaintiff had taken a step
forward and raised her fist, but, according to the
plaintiff’s account, she was merely using her hands to
express herself. Id. One of the officers grabbed the
plaintiff’s left arm, put it behind her back, and handcuffed her left wrist. Id. The second officer then attempted to get the plaintiff’s right arm behind her and
told her to stop resisting. Id. The first officer then performed a takedown of the plaintiff, causing her to fall
to the ground face first. Id. The officer fell on top of
the plaintiff. Id. The takedown fractured the plaintiff’s knee. Id. at 870. The plaintiff was charged with

17a
simple assault or, in the alternative, disorderly conduct, as well as resisting arrest. Id. She was convicted
only of disorderly conduct. Id.
We held that the officer’s takedown of the plaintiff
was not objectively reasonable under the circumstances. Id. at 871. First, the plaintiff posed no threat
to the safety of the officers or others. Id. She “was
standing ten to fifteen feet away from [the ex-boyfriend] when she raised her hands above her head in
frustration. She assert[ed] she did not intend to hit
[the ex-boyfriend], and [he] testified he did not feel
threatened by her actions.” Id. Second, the plaintiff
“was not actively resisting arrest, and [she] was not
attempting to flee.” Id. Third, the plaintiff’s “actions
amounted to a violation of a law restricting disorderly
conduct, a misdemeanor.” Id. Fourth, “although not
dispositive, the severity of the injuries she sustained
[—a broken leg—was] a relevant factor in determining the reasonableness of the force used.” Id. at 872.
We held that the plaintiff’s right to be free from excessive force under such circumstances was clearly established:
Assuming once again [the plaintiff’s] story is
true, the contours of the right at issue were
sufficiently clear to inform a reasonable officer in [the officer’s] position it was unlawful for him to perform a ‘leg sweep’ and
throw to the ground a nonviolent, suspected
misdemeanant who was not threatening anyone, was not actively resisting arrest, and
was not attempting to flee.
Id. at 873.

18a
Finally, in Shekleton, an officer approached the
plaintiff outside of a bar after allegedly witnessing the
plaintiff arguing with the bartender. 677 F.3d at 363–
64. The officer believed that the plaintiff was intoxicated and asked the plaintiff to move away from the
street; the plaintiff complied. Id. The officer asked the
plaintiff three times why he had been arguing with
the bartender. Id. After the officer inquired for the
third time, the plaintiff became agitated, again told
the officer he had not been arguing with the bartender, and demanded an apology from the officer. Id.
After demanding an apology, the plaintiff stopped
leaning against a wall, unfolded his arms, and turned
toward the officer. Id. The officer then twice instructed the plaintiff to put his hands behind his back.
Id. The plaintiff replied that he was unable to do so,
and the officer confirmed knowing that the plaintiff
was unable to do so (the plaintiff had a condition preventing him from doing so which was well-known in
the community). Id. at 364–65. The officer attempted
to handcuff the plaintiff, but he lost his grip on the
plaintiff’s arm. Id. at 365. The two men fell to the
ground. Id. Two other officers then exited the bar and
heard the officer tell the plaintiff to stop resisting. Id.
After attempts to restrain the plaintiff’s arms failed,
the officer yelled “taser, taser, taser” and discharged
the taser at the plaintiff. Id. The electric charge into
the plaintiff’s chest and rib cage caused him to fall
face-first to the ground; he suffered minor head injuries. Id. The plaintiff was handcuffed and arrested for
public intoxication and interference with official acts.
Id. But the charges against the plaintiff were subsequently dropped. Id.

19a
“Viewing the facts in the light most favorable to
[the plaintiff],” we concluded that the plaintiff had “established that a violation of a constitutional right occurred.” Id. at 366. The plaintiff “was an unarmed suspected misdemeanant, who did not resist arrest, did
not threaten the officer, did not attempt to run from
him, and did not behave aggressively towards him.”
Id. The facts showed that the plaintiff “complied with
the officer’s orders to step away from the street and
did not behave aggressively towards [the officer], nor
did [the plaintiff] direct obscenities towards [the officer] or yell at him.” Id. The officer was on notice that
the plaintiff could not physically place his hands behind his back when the officer asked the plaintiff to do
so. Id. And, while the officer and the plaintiff fell away
from each other during the attempted handcuffing,
the plaintiff “did not resist and did not intentionally
cause the two to break apart.” Id. Based on these facts,
we held that “a reasonable officer would not have deployed his taser under the circumstances as presented
by [the plaintiff].” Id. As in Brown, we concluded that
“the general law prohibiting excessive force in place at
the time of the incident was sufficient to inform an officer that use of his taser on a nonfleeing, nonviolent
suspected misdemeanant was unreasonable.” Id. at
367 (citing Brown, 574 F.3d at 499–500).

II. Application of Existing Precedent to Present Case
Brown, Shannon, Montoya, and Shekleton comprise our “body of relevant case law,” see Emmons, 139
S. Ct. at 504 (quotation omitted), that made it sufficiently clear at the time of the incident to warn a reasonable officer that the use of force against a nonthreatening misdemeanant who was not fleeing, resisting arrest, or ignoring other commands violates

20a
that individual’s right to be free from excessive force.
Viewing the facts in the light most favorable to
Kelsay—which we are required to do at this stage of
the litigation—she satisfies all of these criteria. First,
Kelsay was a misdemeanant and not suspected of a
“severe or violent crime.” See Brown, 574 F.3d at 496.
She was convicted of two misdemeanor offenses after
pleading no contest to attempted obstruction of government operations and disturbing the peace. See id.
(open bottle violation); Shannon, 616 F.3d at 863 n.4
(interfering with official acts); Montoya, 669 F.3d at
871 (disorderly conduct); Shekleton, 677 F.3d at 365
(interference with official acts).
Second, viewing the facts in the light most favorable to Kelsay, Kelsay was non-threatening. 3 Kelsay
was a small woman standing at 5 feet tall and weighing 130 pounds and dressed in a swimsuit, who was
walking toward her daughter both before and after
her conversation with Deputy Ernst. She had no
weapon and never verbally or physically threatened
anyone. See Brown, 574 F.3d at 497. As the majority
recognizes, while the female patron who was arguing
with Kelsay’s daughter “later realized that Kelsay
was ‘coming towards me to hurt me or yell at me or
whatever she was planning on doing,’” she initially
“testified that she did not feel threatened at that particular moment.” See supra Op. at 3 (emphasis added).

3 The majority acknowledges the district court’s “assumed fac[t]”
“that Kelsay was not in a position to threaten witnesses [and]
that she posed no danger to anyone” is not “blatantly contradicted by inconvertible evidence.” See supra Op. at 4.

21a
Third, viewing the facts in the light most favorable
to Kelsay, she was not attempting to flee, resisting arrest, or ignoring Deputy Ernst’s commands. In response to Deputy Ernst grabbing Kelsay’s arm and
commanding her to “get back here,” Kelsay “stopped,
turned around, and . . . told him, someone is talking
shit to my kid, I want to know what’s going on.” Br. in
Support of Mot. for Summ. J., Ex. C, at 43, Kelsay v.
Ernst, No. 4:15-cv-3077 (D. Neb. Feb. 2, 2017), ECF
No. 53-8. At that time, Deputy Ernst “let go” of
Kelsay’s arm. Id. at 54; see also id. at 47. Deputy Ernst
said nothing in response to Kelsay’s explanation. Because Deputy Ernst “didn’t say anything” to Kelsay in
response, she “turned around and started walking
back.” Id. at 54. Kelsay testified that she was not resisting arrest or stopping Deputy Ernst from handcuffing her. She also testified that she did not know
that Chief Kirkpatrick wanted Deputy Ernst to arrest
her. Nevertheless, Deputy Ernst “ran up behind
[Kelsay] and he grabbed [her] and slammed [her] to
the ground.” Id. at 51. The maneuver—“like, a bear
hug”—lifted Kelsay “off the ground.” Id. at 98, 99. Due
to the ground impact, Kelsay briefly lost consciousness. Deputy Ernst’s takedown maneuver broke
Kelsay’s collarbone.
The majority characterizes Kelsay’s actions as one
of “a suspect who ignores a command and walks
away”; therefore, it holds that “[d]ecisions concerning
the use of force against suspects who were compliant
or engaged in passive resistance are insufficient to
constitute clearly established law that governs an officer’s use of force.” Supra Op. at 7. But crediting
Kelsay’s account of the events, Kelsay complied with

22a
Deputy Ernst’s command to “get back here” by stopping, turning around, and explaining what she was
doing; in response, Deputy Ernst let go of Kelsay’s
arm and said nothing further. If there is a dispute of
fact on this question, it is material and should be resolved by a jury.
The majority relies on Ehlers as “[o]ur closest decision on point,” supra Op. at 7, but Ehlers is distinguishable. The plaintiff in Ehlers twice ignored the officer’s command to put his hands behind his back and
continued walking as he passed the officer. For this
reason, we held that the plaintiff “at least appeared to
be resisting.” 846 F.3d at 1011 (citing Small v.
McCrystal, 708 F.3d 997, 1005 (8th Cir. 2013). By contrast, the facts construed in the light most favorable
to Kelsay show that she did comply with Deputy
Ernst’s command to “get back here” by stopping, turning around, and explaining what she was doing. Deputy Ernst implicitly recognized her compliance by letting go of her arm and saying nothing in response to
her explanation.
In summary, construing the facts in the light most
favorable to Kelsay, a reasonable officer would have
known based on our body of precedent that a full-body
takedown of a small, nonviolent misdemeanant who
was not attempting to flee, resisting arrest, or ignoring other commands was excessive under the circumstances.
For these reasons, I respectfully dissent.

23a
GRASZ, Circuit Judge, dissenting.
While the physical injury suffered by Ms. Kelsay is
a serious and unfortunate event, the outcome here underscores a wider legal problem.
Like the other dissenting judges, I believe any reasonable officer would have known his conduct in this
case violated Ms. Kelsay’s constitutional rights under
existing case law. That is simply a disagreement with
the majority on the application of precedent. Beyond
this, however, I do take exception to the court’s opinion in one important respect.
At oral argument, the absence of judicial opinions
in this circuit addressing the specific facts here, including the precise take-down maneuver used on Ms.
Kelsay, was used to counter the arguments of her
counsel. Yet, the court now declines to address
whether the maneuver used on Ms. Kelsay violated
her constitutional rights. Instead, the court relies
solely on the second (“clearly established”) prong of
qualified immunity analysis. While this is allowed by
governing precedent, Pearson v. Callahan, 555 U.S.
223, 236 (2009), it is, in my view, inappropriate in this
case as it perpetuates the very state of affairs used to
defeat Ms. Kelsay’s attempt to assert her constitutional rights. See Zadeh v. Robinson, 928 F.3d 457,
479-80 (5th Cir. 2019) (Willet, J. concurring in part,
dissenting in part) (“Section 1983 meets Catch-22.”).
The Supreme Court indicated in Pearson that the option for courts to skip to the second prong of analysis
would not necessarily stunt the development of constitutional law. Pearson, 555 U.S. at 242. The court’s
opinion belies that expectation, at least in the context
of excessive force claims.

24a
This situation has much broader implications than
Ms. Kelsay’s broken collar bone. In the context of violations of constitutional rights by state officials, application of Pearson in this manner imposes a judicially created exception to a federal statute that effectively prevents claimants from vindicating their constitutional rights. The law is never made clear enough
to hold individual officials liable for constitutional violations involving excessive force as Congress authorized in 42 U.S.C. § 1983. Importantly, while Pearson
authorizes this analytical approach, it does not require it.
There is a better way. We should exercise our discretion at every reasonable opportunity to address the
constitutional violation prong of qualified immunity
analysis, rather than defaulting to the “not clearly established” mantra, where, as here, such analysis is
not an “academic exercise,” Pearson, 555 U.S. at 237,
and where it is “difficult to decide whether a right is
clearly established without deciding precisely what
the existing constitutional right happens to be.” Id. at
236 (quoting Lyons v. Xenia, 417 F.3d 565, 581 (6th
Cir. 2005) (Sutton, J., concurring)).
While implementation of this approach may or
may not have brought relief to Ms. Kelsay in this
court, it would help ensure this sad situation is not
repeated. The protection of civil rights and the preservation of the rule of law deserves no less.

25a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
_______________________

No. 17-2181

_______________________

Melanie Kelsay,
Appellee,
v.
Matt Ernst, individually and in his official capacity,
Appellant,
Jay Welch, individually and in his official capacity,
et al.,
_______________________

Appeal from United States District Court for
the District of Nebraska – Lincoln
(4:15-cv-0377-JMG)
_______________________

ORDER
Appellee’s petition for rehearing en banc has been
considered by the Court and is granted. The opinion
and judgment of this Court filed on September 27,
2018 are vacated.
The en banc argument will be scheduled in April
in St. Louis, Missouri. The argument date will be
fixed by a later order of this court.
Counsel shall, within ten days, submit 30
additional copies of previously filed briefs and 8
additional copies of the appendix.

26a
November 30, 2018
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans

27a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
_______________________

No. 17-2181

_______________________

Melanie Kelsay,
Plaintiff-Appellee,
v.
Matt Ernst, individually and in his official capacity,
Defendant-Appellant,
Jay Welch, individually and in his official capacity;
City of Wymore, Nebraska; Russell Kirkpatrick, individually and in his official capacity; Matthew Bornmeier, individually and in his official capacity,
Defendants,
_______________________

Appeal from United States District Court for
the District of Nebraska - Lincoln
_______________________

Submitted: May 16, 2018
Filed: September 27, 2018
_______________________

Before SMITH, Chief Judge, BEAM and
COLLOTON, Circuit Judges.
_______________________

COLLOTON, Circuit Judge.
Melanie Kelsay sued sheriff’s deputy Matt Ernst
under 42 U.S.C. § 1983, alleging that Ernst used excessive force while arresting Kelsay. The district
court denied Ernst’s motion for summary judgment,

28a
and Ernst appeals on the ground that he is entitled to
qualified immunity. We conclude that Ernst did not
violate a clearly established right of Kelsay under the
Fourth Amendment, so we reverse the order.
The question presented is whether Ernst is entitled to summary judgment, so while there are some
disputes about the facts, we ultimately consider the
evidence in the light most favorable to Kelsay. On
May 29, 2014, Kelsay, her three children, and her
friend Patrick Caslin went swimming at a public pool
in Wymore, Nebraska. Caslin engaged Kelsay in what
she described as “horseplay,” but some onlookers
thought he was assaulting her, and a pool employee
contacted the police.
As Kelsay and her party left the pool complex, they
encountered Wymore Police Chief Russell Kirkpatrick
and Officer Matthew Bornmeier. Kirkpatrick informed Caslin that he was under arrest for domestic
assault and escorted him to a patrol car. Kelsay was
“mad” that Caslin was arrested. She tried to explain
to the officers that Caslin had not assaulted her, but
she thought that the officers could not hear her.
According to Kirkpatrick, Caslin became enraged
once they reached the patrol car and resisted going inside. Kirkpatrick says that after he secured Caslin in
handcuffs, Kelsay approached the patrol car and stood
in front of the door. Kirkpatrick claims that he told
her to move three times before Bornmeier escorted her
away so that Kirkpatrick could place Caslin into the
patrol car.
Kelsay denies approaching the patrol car until after Caslin was inside the vehicle. At that point, while
Kirkpatrick interviewed witnesses, she walked over to

29a
the car to talk to Caslin. Bornmeier told her to back
away from the vehicle, and Kelsay complied. Two
more officers—Deputy Matt Ernst and Sergeant Jay
Welch from the Gage County Sheriff’s Office—then arrived on the scene. When they appeared, Kelsay was
standing about fifteen feet from the patrol car where
Caslin was detained, and twenty to thirty feet from
the pool’s exit doors. Kelsay’s younger daughter was
standing next to her; her older daughter and son were
standing by the exit doors. Kelsay stood approximately five feet tall and weighed about 130 pounds.
Kirkpatrick told Ernst and Welch that Kelsay had
interfered with Caslin’s arrest. According to Welch,
Kirkpatrick explained that Kelsay tried to prevent
Caslin’s arrest by “trying to pull the officers off and
getting in the way of the patrol vehicle door.” Kirkpatrick thus decided that Kelsay should be arrested.
In the meantime, Kelsay’s older daughter was near
the pool exit doors yelling at a patron who the daughter assumed had contacted the police. Kelsay started
to walk toward her daughter, but Ernst ran up behind
Kelsay, grabbed her arm, and told her to “get back
here.” Kelsay stopped walking and turned around to
face Ernst, at which point Ernst let go of Kelsay’s arm.
Kelsay told Ernst that “some bitch is talking shit to
my kid and I want to know what she’s saying,” and
she continued walking away from Ernst and toward
her daughter.
After Kelsay moved a few feet away from Ernst,
the deputy placed Kelsay in a bear hug, took her to
the ground, and placed her in handcuffs. Kelsay momentarily lost consciousness after she hit the ground.

30a
When she regained her senses, she was already handcuffed, and she began screaming about pain in her
shoulder.
Ernst drove her to the Gage County jail, but corrections officers recommended that Kelsay be examined by a doctor. Kirkpatrick took Kelsay to a hospital, where she was diagnosed with a fractured collarbone. Kelsay ultimately was found guilty of two misdemeanor offenses after pleading no contest to attempted obstruction of government operations and
disturbing the peace.
Kelsay later sued the City of Wymore and Kirkpatrick, Bornmeier, Ernst, and Welch in their individual
and official capacities, alleging wrongful arrest, excessive force, and deliberate indifference to medical
needs. The district court granted summary judgment
in favor of all defendants on all claims but one. The
court ruled that Deputy Ernst was not entitled to
qualified immunity on a claim that he used excessive
force to arrest Kelsay when he took her to the ground
and caused the broken collarbone. The court reasoned
that the evidence, viewed in the light most favorable
to Kelsay, could lead a factfinder to conclude that
Ernst’s use of force was unreasonable and violated
Kelsay’s clearly established rights under the Fourth
Amendment.
As an initial matter, Kelsay challenges our jurisdiction over this appeal. We have jurisdiction over an
interlocutory appeal of an order denying qualified immunity if the appeal seeks review of a purely legal issue, but we lack jurisdiction to decide “which facts a
party may, or may not, be able to prove at trial.” Johnson v. Jones, 515 U.S. 304, 313 (1995). In this case,

31a
Ernst does not challenge any determination of the district court about which facts Kelsay could prove at
trial. He raises only the legal question whether the
evidence viewed in the light most favorable to Kelsay
shows that he violated her clearly established rights
under the Fourth Amendment. We have jurisdiction
to decide that question. See Shannon v. Koehler, 616
F.3d 855, 861 (8th Cir. 2010).
Qualified immunity shields a government official
from suit under § 1983 if his “conduct does not violate
clearly established statutory or constitutional rights
of which a reasonable person would have known.”
Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982). For a
right to be clearly established, “[t]he contours of the
right must be sufficiently clear that a reasonable official would understand that what he is doing violates
that right.” Anderson v. Creighton, 483 U.S. 635, 640
(1987). A plaintiff must identify either “controlling
authority” or “a robust ‘consensus of cases of persuasive authority’” that “placed the statutory or constitutional question beyond debate” at the time of the alleged violation. Ashcroft v. al-Kidd, 563 U.S. 731,
74142 (2011) (quoting Wilson v. Layne, 526 U.S. 603,
617 (1999)). In other words, the law at the time of the
events in question must have given the officers “fair
warning” that their conduct was unconstitutional.
Hope v. Pelzer, 536 U.S. 730, 741 (2002).
The state of the law should not be examined at a
high level of generality. “The dispositive question is
whether the violative nature of particular conduct is
clearly established.” Mullenix v. Luna, 136 S. Ct. 305,
308 (2015) (per curiam) (internal quotation marks
omitted). “Such specificity is especially important in

32a
the Fourth Amendment context, where . . . it is sometimes difficult for an officer to determine how the relevant legal doctrine, here excessive force, will apply to
the factual situation the officer confronts.” Id. (internal quotation marks omitted).
In this case, Kelsay alleged that the takedown maneuver violated her right under the Fourth Amendment to be free from excessive force. The district court
rejected Ernst’s defense of qualified immunity. The
court reasoned that where a nonviolent misdemeanant poses no threat to officers and is not actively resisting arrest or attempting to flee, an officer may not
employ force just because the suspect is interfering
with police or behaving disrespectfully. See Shekleton
v. Eichenberger, 677 F.3d 361, 366-367 (8th Cir. 2012);
Montoya v. City of Flandreau, 669 F.3d 867, 871-72
(8th Cir. 2012); Johnson v. Carroll, 658 F.3d 819, 827
(8th Cir. 2011); Shannon, 616 F.3d at 864-65; Brown
v. City of Golden Valley, 574 F.3d 491, 499 (8th Cir.
2009); Kukla v. Hulm, 310 F.3d 1046, 1050 (8th Cir.
2002). The court ruled that the excessiveness of
Ernst’s use of force would have been apparent to a reasonable officer, because while Kelsay “was not precisely ‘compliant’—that is, she had been told to stop
but kept walking instead—she was not using force or
actively resisting arrest, and posed no danger to anyone.”
We respectfully disagree with this conclusion. It
was not clearly established in May 2014 that a deputy
was forbidden to use a takedown maneuver to arrest
a suspect who ignored the deputy’s instruction to “get
back here” and continued to walk away from the officer. We held in Ehlers v. City of Rapid City, 846 F.3d
1002 (8th Cir. 2017), that an officer did not violate the

33a
Fourth Amendment by executing a takedown of a nonviolent misdemeanant when the officer twice ordered
the suspect to place his hands behind his back, but the
suspect continued walking away. Id. at 1011. The
court concluded that a reasonable officer would interpret the subject’s behavior as “noncompliant,” and
reasoned that he “at least appeared to be resisting”
when he continued to walk away, so the officer was
“entitled to use the force necessary to effect the arrest.” Id. Under Kelsay’s version of the facts, Ernst
told Kelsay only once to “get back here” before she continued to walk away, but even if there might be a constitutionally significant distinction between one command and two, no such rule was clearly established
when Ernst made his arrest. None of the decisions
cited by the district court or Kelsay involved a suspect
who ignored an officer’s command and walked away,
so they could not clearly establish the unreasonableness of using force under the particular circumstances
here. The constitutionality of Ernst’s takedown was
not beyond debate, and he is thus entitled to qualified
immunity.
The dissenting opinion concludes that Ehlers is obviously distinguishable by relying on a different section of the decision concerning whether a different officer had probable cause to arrest the suspect. Because the officer who directed the arrest in Ehlers reasonably interpreted the suspect’s behavior as “threatening,” id. at 1009, the dissent apparently concludes
that the second officer’s use of force against the suspect was reasonable only because the suspect posed a
threat. But this was not the court’s rationale. Ehlers
explained that the arresting officer reasonably exe-

34a
cuted a takedown of the suspect, a “nonviolent” misdemeanant, because he ignored two commands and
“at least appeared to be resisting.” Id. at 1011. The
opinion did not rely on threatening behavior by the
suspect to justify the takedown. Indeed, there is nothing in the opinion to show that the arresting officer
was even aware that the suspect posed a threat to the
first officer. The first officer simply told the arresting
officer to “[t]ake this guy, he’s not listening.” Id. at
1010. A reasonable officer thus could interpret Ehlers
to mean that it is reasonable to execute a takedown
when a nonviolent misdemeanant ignores two commands. If that was the law in 2017, then it was not
obvious or beyond debate in 2014 that an officer was
forbidden to execute a takedown when a nonviolent
misdemeanant ignored one command.
For these reasons, the order of the district court
denying qualified immunity is reversed. 1

Kelsay also appears to contend that Ernst violated her Fourth
Amendment rights by failing to remove handcuffs despite her repeated complaints of shoulder pain. The district court did not
address this claim, and Ernst does not appeal any ruling about
it. Accordingly, we do not consider whether Kelsay properly presented this claim in the district court or, if so, whether it would
survive a motion for summary judgment.

1

35a
BEAM, Circuit Judge, concurring.
I concur in the court’s reversal of this matter. But,
I do so somewhat advisedly because of the extant but
confusing precedent available to the district court at
that time. And, speaking parenthetically, the slamming of this lady to the ground by the deputy with
force sufficient to fracture her shoulder was uncalled
for given the nature of the encounter underway.

36a
SMITH, Chief Judge, dissenting.
I respectfully dissent. The court rightfully concludes that in May 2014, case law did not clearly establish “that a deputy was forbidden to use a
takedown maneuver to arrest a suspect who ignored
the deputy’s instruction to ‘get back here’ and continued to walk away from the officer.” Supra p. 6. But,
“in an obvious case,” the clearly-established prong can
be met “even without a body of relevant case law.”
Brosseau v. Haugen, 543 U.S. 194, 199 (2004) (per curiam) (citing Hope, 536 U.S. at 738; Pace v.
Capobianco, 283 F.3d 1275, 1283 (11th Cir. 2002)).
Prior case law is unnecessary where “a general constitutional rule already identified in the decisional law
[applies] with obvious clarity to the specific conduct in
question.” Capps v. Olson, 780 F.3d 879, 886 (8th Cir.
2015) (quoting United States v. Lanier, 520 U.S. 259,
271 (1997)). This is such a case.
Kelsay was a small woman standing at 5 feet tall
and weighing 130 pounds dressed in a swimsuit. She
acknowledged that Deputy Ernst grabbed her arm
and “said to get back here.” Kelsay v. Ernst, No. 4:15CV-3077, 2017 WL 5953112, at *2 (D. Neb. May 19,
2017) (citation to the record omitted). But, according
to Kelsay, she walked away from the deputy to check
on her daughter. She denied resisting Deputy Ernst’s
efforts to handcuff or arrest her. Nevertheless, Deputy
Ernst “ran up behind [Kelsay] and he grabbed [her]
and slammed [her] to the ground.” Id. (second and
third alterations in original) (citation to the record
omitted). The maneuver—“like, a bear hug”—lifted
Kelsay “completely off the ground.” Id. (citation to the
record omitted). Due to the ground impact, Kelsay

37a
briefly lost consciousness. Deputy Ernst’s takedown
maneuver broke Kelsay’s collarbone.
Kelsay’s and Deputy Ernst’s versions of factual
events materially differ, but at this stage of the litigation, Kelsay gets the benefit of all reasonable inferences. The record did not reflect that Kelsay was a
threat, physical or otherwise, to either the officers or
bystanders. Deputy Ernst’s bear-hug takedown could
be found by a jury to be unreasonable under the circumstances. “Police officers undoubtedly have a right
to use some degree of physical force, or threat thereof,
to effect a lawful seizure, and reasonable applications
of force may well cause pain or minor injuries with
some frequency.” Grider v. Bowling, 785 F.3d 1248,
1252 (8th Cir. 2015) (emphasis added) (quoting Chambers v. Pennycook, 641 F.3d 898, 907 (8th Cir. 2011)).
But it should be obvious that a blind body slam of a
comparatively slightly built and nonviolent misdemeanant unreasonably increased the probability of injury. The amount of force applied was unreasonable
and was more than what was reasonably necessary to
effectuate an arrest under the circumstances.
The Court relies on Ehlers, but Ehlers is distinguishable. In Ehlers, we concluded that
[a] reasonable officer in Hansen’s position
would at least consider the possibility that
Ehlers could produce a weapon or otherwise
attack him, especially given that Ehlers had
directly disobeyed unequivocal orders, was
in close proximity to Hansen, and continued
to approach Hansen while he was arresting
Ehlers’s son. In order to continue to place
Derrik in the patrol car, Hansen would have
had to turn his back to Ehlers and leave

38a
himself vulnerable to this risk. Thus, it is
not unreasonable that Hansen would interpret Ehlers’s physical presence, close proximity, and refusal to comply as threatening
and preventing him from completing the
task at hand.
846 F.3d at 1009. In contrast to Ehlers, Kelsay did not
have a weapon or access to one; she was walking away
from Deputy Ernst; she disobeyed Deputy Ernst’s order once; and Deputy Ernst did not have to place himself in a vulnerable position. Moreover, in contrast to
the officer in Ehlers, Deputy Ernst gave Kelsay no
warning2after she turned her back and walked away
from him. Deputy Ernst simply tackled her from behind. The officers in Ehlers reasonably interpreted the
arrestee’s “physical presence, close proximity, and refusal to comply as threatening.” Id. at 1009. No facts
in the instant case support a reasonable belief that
Kelsay’s actions were threatening.
Given the facts, a reasonable officer on the scene
would have known that a fullbody takedown of a small
and nonviolent misdemeanant was excessive under
the circumstances. Deputy Ernst was entitled to use
the force necessary to effect an arrest. However, a jury
might decide that Deputy Ernst used substantially
more force than necessary. See Small v. McCrystal,
708 F.3d 997, 1005 (8th Cir. 2013) (“It was unreasonable for [an officer] to use more than de minimis force
against [the arrestee] by running and tackling him
from behind without warning.” (citing Shannon, 616
Deputy Ernst told Kelsay to “get back here,” Kelsay, 2017 WL
5953112, at *2, but that order occurred before Kelsay turned her
back to the deputy and continued walking away.
2

39a
F.3d at 863; Bauer v. Norris, 713 F.2d 408, 412–13
(8th Cir. 1983))); see also Morelli v. Webster, 552 F.3d
12, 24 (1st Cir. 2009) (“Here, the facts, seen through
the prism of the plaintiff’s account, simply do not justify yanking the arm of an unarmed and non-violent
person, suspected only of the theft of $20, and pinning
her against a wall for three to four minutes with sufficient force to tear her rotator cuff. That is particularly so in view of the marked disparity in height and
weight between the officer and the suspect, the absence of any evidence of either dangerousness or attempted flight, and the presence of a cadre of other
officers at the scene. In short, the plaintiff’s version of
the relevant facts places Webster’s actions outside the
universe of protected mistakes.” (citations omitted));
Solomon v. Auburn Hills Police Dep’t, 389 F.3d 167,
175 (6th Cir. 2004) (“[T]he officers here were not faced
with a tense and uncertain situation where they
feared for their safety and the safety of bystanders. . .
. Officer Miller then shoved [the arrestee] into the
[theater] display case, putting his entire weight—
nearly twice the amount of her own weight—against
her. Finally, without directing Solomon to act, he
yanked her arm behind her with such force that it
fractured. Officer Miller’s actions, in total, were excessive and resulted in Solomon suffering from bruising
and a fractured arm.”).
Officer Ernst did not need to be put on notice by a
prior case with the instant facts to know that his conduct could be challenged as unreasonable.
For these reasons, I respectfully dissent.

40a
APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA
[filed May 19, 2017]
MELANIE KELSAY,
Plaintiff,

)
)
)
vs.
)
)
MATT ERNST,
)
INDIVIDUALLY AND IN HIS )
OFFICIAL CAPACITY, et al., )
Defendants.
)

4:15-CV-3077

MEMORANDUM AND ORDER
This matter is before the Court on two motions for
summary judgment. First, defendants Matt Ernst and
Jay Welch move for summary judgment (filing 52)
with respect to the plaintiff’s excessive force claim.
The Court will grant that motion in part and deny it
in part. Specifically, the Court will grant summary
judgment with respect to the plaintiff’s claim against
Ernst and Welch in their official capacities, and with
respect to her claim against Welch in his individual
capacity. But the Court will deny the motion with
respect to the plaintiff’s individual-capacity claim
against Ernst.
Second, defendants Russell Kirkpatrick, Mathew
Bornemeier, and the City of Wymore move for
summary judgment (filing 54) with respect to the
plaintiff’s claims against them. The Court will grant
that motion.

41a
I. BACKGROUND
The underlying incident occurred at the city pool
in Wymore, Nebraska on May 29, 2014. Filing 53-8 at
10. The plaintiff, Melanie Kelsay, was at the pool with
her children and Patrick Caslin, who Kelsay describes
as a “family friend.” Filing 53-8 at 11. At some point,
someone called police and said that Kelsay and Caslin
were involved in what was reported as a “domestic
assault.” Filing 53-8 at 19. According to Kelsay, it was
just horseplay: Kelsay says she was taking pictures of
the children by the side of the pool and Caslin came
up behind her and pretended he was going to throw
her in the pool, and she told him not to. Filing 53-8 at
19. 1 But regardless, when Kelsay and the others left
the pool, Wymore police chief Kirkpatrick and
Wymore police officer Bornemeier were waiting for
them. Filing 53-8 at 20.
According to Kelsay, Kirkpatrick and Bornemeier
confronted Kelsay and her companions as soon as they
left the pool. Filing 53-8 at 29. Kirkpatrick told Caslin
that Caslin needed to come to the police car with him.
Filing 53-8 at 29. After repeatedly being asked why,
Kirkpatrick said that someone had reported a
domestic assault. Filing 53-8 at 29. So, Kelsay says,
she told Kirkpatrick that nothing had happened and
that she and Caslin had just been playing around.
Filing 53-8 at 29.

1 The parties dispute what actually happened between Kelsay
and Caslin that prompted the call to police. Compare filing 53 at
4 with filing 57 at 4-5. But it is not clear to the Court why the
precise nature of that incident is relevant to the plaintiff’s
remaining claims.

42a
Caslin agreed to accompany Kirkpatrick, and
Kelsay could no longer hear them, but she saw that
Caslin was being handcuffed. Filing 53-8 at 30. Kelsay
says she “was mad” but didn’t approach the patrol car
at that point. Filing 53-8 at 30-31. After Kirkpatrick
went to speak to some other witnesses, though, Kelsay
went to the window of the patrol car and asked Caslin,
who was in the back, what to do. Filing 53-8 at 31.
Bornemeier warned Kelsay to back up, and Kelsay
says she backed up about 15 feet. Filing 53-8 at 31. By
that time, deputies from the Gage County sheriff’s
office—Ernst and Welch—had arrived on the scene.
Filing 53-8 at 32.
Kelsay tried to call her husband, and then some
other people after she was unable to reach her
husband. Filing 53-8 at 32. Kelsay says that
Kirkpatrick yelled over to her and asked if she was
calling her husband, and that when she said “yes,” he
said “good.” Filing 53-8 at 32. Kelsay walked toward
her children. Filing 53-8 at 35. One of Kelsay’s
daughters was arguing with someone. Filing 53-8 at
38. Ernst approached Kelsay quickly from behind.
Filing 53-8 at 36-37.
Kelsay says that Ernst grabbed her arm and “said
to get back here.” Filing 53-8 at 43. So, Kelsay says,
she turned around and told him that someone was
“talking shit to my kid” and she wanted to know what
was happening. Filing 53-8 at 43. She denies resisting
Ernst’s efforts to handcuff or arrest her. Filing 53-8 at
139. But she continued to walk toward her daughter.
Filing 53-8 at 43. Then, according to Kelsay, Ernst
“ran up behind [her] and he grabbed [her] and
slammed [her] to the ground.” Filing 53-8 at 51.
Kelsay is 5 feet tall and weighs about 130 pounds.

43a
Filing 53-8 at 97. She says that Ernst had her in “like,
a bear hug” and lifted her completely off the ground.
Filing 53-8 at 98-99, 139. She remembers being “up in
the air” and “hitting the ground,” and then doesn’t
remember anything until being picked up, already in
handcuffs. Filing 53-8 at 52, 140. She briefly lost
consciousness. Filing 53-8 at 25, 140.
Ernst’s account of the incident differs in some
respects. Ernst says that he saw Kelsay “hurriedly
begin walking” toward the person arguing with her
daughter, and was “screaming at this person.” Filing
17-1 at 2. So, Ernst says, he ran to Kelsay and placed
himself between her and the woman she was
approaching, and instructed her to stop moving and
put her hands behind her back. Filing 17-1 at 2. Ernst
reports that Kelsay “then became violent,” attempting
to hit and kick him, so that’s when he took her forcibly
to the ground. Filing 17-1 at 2. Welch’s account is
consistent with Ernst’s. Filing 17-3 at 2. And other
witnesses have corroborated different aspects of that
account. Filing 53-8 at 166, 169; filing 53-9 at 6-8, 12.
After she came to, Kelsay complained of a broken
shoulder. Filing 53-8 at 56, 140. Ernst placed her in a
patrol car and took her to the Gage County jail, where
correctional officers said that she would need to be
examined by a doctor. Filing 17-1 at 2; filing 53-8 at
57, 62. Kirkpatrick took her to the hospital, where she
was found to have a broken collarbone. Filing 53-8 at
68, 76. Kelsay claims to have incurred significant
medical bills and permanent injury. Filing 21-1 at 4.
She was eventually convicted of attempting to
obstruct government operations and disturbing the
peace. Filing 17-5 at 6, 9.

44a
Kelsay sued the City of Wymore and Kirkpatrick,
Bornemeier, Ernst, and Welch (in their individual and
official capacities) alleging claims for wrongful arrest,
excessive force, and deliberate indifference to medical
needs. Filing 13. The Court has previously dismissed
the wrongful arrest and deliberate indifference claims
as to Ernst and Welch: the Court found that the
wrongful arrest claim was barred by Heck v.
Humphrey, 512 U.S. 477 (1994), filing 28, and that
there was no evidence Ernst or Welch had been
deliberately indifferent to Kelsay’s medical needs,
filing 61. So, the only claim remaining as to Ernst and
Welch is the excessive force claim. All three of
Kelsay’s claims remain pending as to Wymore,
Kirkpatrick, and Bornemeier.
II. STANDARD OF REVIEW
Summary judgment is proper if the movant shows
that there is no genuine dispute as to any material
fact and that the movant is entitled to judgment as a
matter of law. See Fed. R. Civ. P. 56(a). The movant
bears the initial responsibility of informing the Court
of the basis for the motion, and must identify those
portions of the record which the movant believes
demonstrate the absence of a genuine issue of
material fact. Torgerson v. City of Rochester, 643 F.3d
1031, 1042 (8th Cir. 2011) (en banc). If the movant
does so, the nonmovant must respond by submitting
evidentiary materials that set out specific facts
showing that there is a genuine issue for trial. Id.
On a motion for summary judgment, facts must be
viewed in the light most favorable to the nonmoving
party only if there is a genuine dispute as to those
facts. Id. Credibility determinations, the weighing of
the evidence, and the drawing of legitimate inferences

45a
from the evidence are jury functions, not those of a
judge. Id. But the nonmovant must do more than
simply show that there is some metaphysical doubt as
to the material facts. Id. In order to show that
disputed facts are material, the party opposing
summary judgment must cite to the relevant
substantive law in identifying facts that might affect
the outcome of the suit. Quinn v. St. Louis County, 653
F.3d 745, 751 (8th Cir. 2011). The mere existence of a
scintilla of evidence in support of the nonmovant’s
position will be insufficient; there must be evidence on
which the jury could conceivably find for the
nonmovant. Barber v. C1 Truck Driver Training, LLC,
656 F.3d 782, 791-92 (8th Cir. 2011). Where the record
taken as a whole could not lead a rational trier of fact
to find for the nonmoving party, there is no genuine
issue for trial. Torgerson, 643 F.3d at 1042.
III. DISCUSSION
Ernst and Welch move to dismiss Kelsay’s
remaining claim against them, for excessive force.
Kirkpatrick, Bornemeier, and the City of Wymore
move to dismiss all of Kelsay’s claims as to them.
1. ERNST AND WELCH
Kelsay sued Ernst and Welch in their individual
and official capacities. Those claims will be considered
separately.
(a) Individual-Capacity Claims
Ernst and Welch argue that they are entitled to
qualified immunity from Kelsay’s individual-capacity
claims. Qualified immunity protects government
officials from liability for civil damages insofar as
their conduct does not violate clearly established

46a
statutory or constitutional rights of which a
reasonable person would have known. Ransom v.
Grisafe, 790 F.3d 804, 810-11 (8th Cir. 2015), cert.
denied, 136 S. Ct. 838 (2016). This immunity applies
to discretionary functions of government actors,
including the decision to use force and to detain an
individual. Id. To overcome the defense of qualified
immunity, a plaintiff must show that the officer’s
actions violated a constitutional right that was clearly
established at the time of their alleged misconduct. Id.
In other words, the officer must have been plainly
incompetent, or must have knowingly violated the
law, when he used force to seize the plaintiff. Id.
So, for purposes of qualified immunity, the Court
considers (1) whether law enforcement violated a
constitutional right—here, whether their use of force
was objectively reasonable—and, (2) whether that
right was clearly established at the time of the
incident. Once the relevant predicate facts are
established, the reasonableness of the officer’s
conduct under the circumstances is a question of law.
McKenney v. Harrison, 635 F.3d 354, 359 (8th Cir.
2011); Mann v. Yarnell, 497 F.3d 822, 825 (8th Cir.
2007); see Scott v. Harris, 550 U.S. 372, 381 n.8 (2007).
And the ultimate question of qualified immunity is
also one of law, once the predicate facts are
determined. Littrell v. Franklin, 388 F.3d 578, 584-85
(8th Cir. 2004).
(i) Violation of Constitutional Right
A claim that law enforcement officers used
excessive force to effect a seizure is governed by the
Fourth Amendment’s “reasonableness” standard.
Plumhoff v. Rickard, 134 S. Ct. 2012, 2020 (2014).
Determining the objective reasonableness of a

47a
particular seizure under the Fourth Amendment
requires a careful balancing of the nature and quality
of the intrusion on the individual’s Fourth
Amendment interests against the countervailing
governmental interests at stake. Id. This inquiry
requires analyzing the totality of the circumstances,
“from the perspective of a reasonable officer on the
scene, rather than with the 20/20 vision of hindsight.”
Id. (citation and quotation omitted). This allows for
the fact that “police officers are often forced to make
split-second judgments—in circumstances that are
tense, uncertain, and rapidly evolving—about the
amount of force that is necessary in a particular
situation.” Id. (citation and quotation omitted).
Police officers undoubtedly have a right to use
some degree of physical force, or threat thereof, to
effect a lawful seizure, and reasonable applications of
force may well cause pain or minor injuries with some
frequency. Grider v. Bowling, 785 F.3d 1248, 1252
(8th Cir. 2015). Not every push or shove, even if it may
later seem unnecessary in the peace of a judge’s
chambers, violates the Fourth Amendment. Peterson
v. Kopp, 754 F.3d 594, 600 (8th Cir. 2014) (quoting
Graham v. Connor, 490 U.S. 386, 396 (1989)). The key
question is whether the officers’ actions are objectively
reasonable in light of the facts and circumstances
confronting them, without regard to their underlying
intent or motivation. Smith v. City of Brooklyn Park,
757 F.3d 765, 772 (8th Cir. 2014); see Schoettle v.
Jefferson Cty., 788 F.3d 855, 859 (8th Cir. 2015). The
Court looks to the specific circumstances, such as the
severity of the crime at issue, whether the suspect
poses an immediate threat to the safety of the officers
or others, and whether she is actively resisting arrest

48a
or attempting to evade arrest by flight. Peterson, 754
F.3d at 600.
The Court begins with Ernst, who actually
employed the force about which Kelsay complains.
Ernst argues that he is entitled to qualified immunity
because the technique he used “was a reasonable
maneuver under the circumstances to control Plaintiff
Kelsay, who was perceived by all officers and objective
witnesses present to be aggressive, resisting, and
noncompliant.” Filing 53 at 13-14. Ernst also contends
that the use of force was justified by Kelsay’s “seeming
effort to verbally berate and to even potentially fight
certain witnesses” and that
Kelsay actively resisted Deputy Ernst’s
efforts to place her in handcuffs to effectuate
her arrest. When Kelsay started to refuse to
submit to arrest, and started to kick and
physically resist Deputy Ernst, she was not
yet handcuffed, and he used a common law
enforcement maneuver to “bear hug” her
from behind and take her to the ground to
subdue her in order to get her handcuffed. .
. . All witnesses agree that Kelsay began her
interfering behaviors as Caslin was
arrested, and subsequently directed her
anger towards certain witnesses, all of
which collectively led to her arrest[.]
Filing 53 at 20. But those arguments are inconsistent
with the Court’s standard of review on summary
judgment, under which the question is “whether the
facts, viewed in the light most favorable to the
plaintiff, demonstrate the deprivation of a
constitutional or statutory right.” Ehlers v. City of
Rapid City, 846 F.3d 1002, 1008 (8th Cir. 2017)

49a
(emphasis supplied). The Court must accept Kelsay’s
account of the facts where there are material
inconsistencies. Henderson v. Munn, 439 F.3d 497,
499 n.2 (8th Cir. 2006). And Kelsay denies the conduct
relied upon by Ernst to justify his use of force.
Ernst’s argument essentially asks the Court to find
that Kelsay’s testimony is incredible. But at the
summary judgment stage, the Court is not permitted
to
weigh
the
evidence,
make
credibility
determinations, or attempt to determine the truth of
the matter. United States v. Bame, 721 F.3d 1025,
1028 (8th Cir. 2013); see Coker v. Arkansas State
Police, 734 F.3d 838, 843 (8th Cir. 2013). The Court
must view the evidence in the light most favorable to
Kelsay, and seen in that light—if her testimony was
credited—a finder of fact could conclude that Ernst’s
use of force was unreasonable. If Kelsay’s testimony is
credited, even in part, it establishes that she was
walking away from police, and was not in a position to
threaten witnesses or law enforcement. While she was
not precisely “compliant”—that is, she had been told
to stop but kept walking instead—she was not using
force or actively resisting arrest, and posed no danger
to anyone. 2 See, Kukla v. Hulm, 310 F.3d 1046, 1050
The Court has carefully considered its previous conclusion that
Kelsay’s excessive force claim is not Heck-barred. Filing 28 at 45. But the Court stands by its previous conclusion that the
Eighth Circuit’s decision in Colbert v. City of Monticello, Ark. is
on point. 775 F.3d 1006, 1007-08 (8th Cir. 2014). Specifically,
Kelsay’s conviction for attempting to obstruct government
operations did not require her to use force or violence. Neb. Rev.
Stat. § 28-901; State v. Stolen, 755 N.W.2d 596, 601-02 (Neb.
2008). Nor did her conviction for disturbing the peace, despite
the allegation that she had engaged in a “verbal and physical
altercation with law enforcement personnel.” Filing 17-5 at 9;
2

50a
(8th Cir. 2002); Lollie v. Johnson, 159 F. Supp. 3d 945,
95960 (D. Minn. 2016).
Ernst relies on the opinion of Mark Sundermeier,
an experienced law enforcement officer whom the
defendants proffer as an expert on police use of force.
Filing 53-2. He opines that Ernst’s use of force was
reasonable and prudent. Filing 53-2 at 1. But that
opinion rests on factual assumptions that are
inconsistent with Kelsay’s account of the incident: he
presumes that Kelsay was approaching other
witnesses and yelling at them aggressively, that she
was non-compliant with Ernst’s efforts to control her,
and that she lifted her own feet off the ground and was
kicking and flailing. Filing 53-2 at 2. But Kelsay says
otherwise. Sundermeier notes that, but contends that
Kelsay’s account is “directly contradicted” by the
officers and “objective thirdparty witnesses,” and that
all the “objective witnesses” describe the incident the
same way. Filing 53-2 at 4. And perhaps that’s how it
happened, but as explained above, it is not the Court’s
function, on summary judgment, to decide which
witnesses are more credible. Sundermeier’s
assessment does not preclude the existence of genuine
issues of material fact as to what actually happened
in the parking lot of the Wymore pool.
(ii) Clearly Established Right
Moreover, taking Kelsay’s version of events as
true, the Court finds that her right to be free from the
excessive use of force under those circumstances was
clearly established. For a right to be clearly
see, Neb. Rev. Stat. § 28-1322; State v. Broadstone, 447 N.W.2d
30, 33-34 (Neb. 1989); see also Union Pac. R. Co. v. State, 130
N.W. 277, 278 (Neb. 1911).

51a
established, the contours of the right must be
sufficiently clear that a reasonable official would
understand that what he is doing violates that right.
Parker v. Chard, 777 F.3d 977, 980 (8th Cir. 2015). It
is unnecessary to have a case directly on point, but
existing precedent must have placed the statutory or
constitutional question beyond debate. Id. at 980.
Clearly established law is not defined at a high level
of generality, since doing so avoids the crucial
question whether the official acted reasonably in the
particular circumstances that he or she faced. Id.
(citing Plumhoff, 134 S. Ct. at 2023). “The dispositive
question is whether the violative nature of particular
conduct is clearly established.” Mullenix v. Luna, 136
S. Ct. 305, 308 (2015) (quotation omitted). “Such
specificity is especially important in the Fourth
Amendment context, where the Court has recognized
that it is sometimes difficult for an officer to
determine how the relevant legal doctrine, here
excessive force, will apply to the factual situation the
officer confronts.” Id. (quotation omitted).
The Court evaluates the defense of qualified
immunity from the perspective of a reasonable police
officer based on facts available to the officer at the
time of the alleged constitutional violation. Id. Thus,
if an officer acts in a manner about which officers of
reasonable competence could disagree, the officer
should be immune from liability. Johnson v.
Schneiderheinz, 102 F.3d 340, 341 (8th Cir. 1996).
The concern of the immunity inquiry is to
acknowledge that reasonable mistakes can
be made as to the legal constraints on
particular police conduct. . . . An officer
might correctly perceive all of the relevant

52a
facts but have a mistaken understanding as
to whether a particular amount of force is
legal in those circumstances. If the officer’s
mistake as to what the law requires is
reasonable, however, the officer is entitled
to the immunity defense.
Saucier v. Katz, 533 U.S. 194, 205 (2001), overruled on
other grounds, Pearson v. Callahan, 555 U.S. 223
(2009). Qualified immunity operates to protect officers
from the sometimes hazy border between excessive
and acceptable force, and to ensure that before they
are subjected to suit, officers are on notice their
conduct is unlawful. Id. at 206.
It is clearly established that force is least justified
against nonviolent misdemeanants who do not flee or
actively resist arrest and pose little or no threat to the
security of the officers or the public. Brown v. City of
Golden Valley, 574 F.3d 491, 499 (8th Cir. 2009). And
it has often been held under comparable
circumstances that the use of force may be
unwarranted against a person who poses no threat
and is not actively resisting arrest or attempting to
flee, even if that person is interfering with police or
behaving disrespectfully. See, e.g., Shekleton v.
Eichenberger, 677 F.3d 361, 366-67 (8th Cir. 2012);
Montoya v. City of Flandreau, 669 F.3d 867, 871-72
(8th Cir. 2012); Johnson v. Carroll, 658 F.3d 819, 827
(8th Cir. 2011); Shannon v. Koehler, 616 F.3d 855,
864-65 (8th Cir. 2010); Brown, 574 F.3d at 499; Kukla,
310 F.3d at 1050; Lollie, 159 F. Supp. 3d at 959-60.
Force may only be used to overcome physical
resistance or threatened force, and may not be
employed simply because a suspect is disagreeable.
See Shannon, 616 F.3d at 864-65. In this case, if

53a
Kelsay’s account is taken as true, then the
excessiveness of Ernst’s use of force would have been
apparent. Accordingly, there are genuine issues of
material fact with respect to Ernst that preclude
qualified immunity and summary judgment.
(iii) Claim Against Welch
That having been said, the same is not true of
Welch, because he did not employ force against
Kelsay. Kelsay’s claim against Welch depends on his
failure to intervene to prevent Ernst’s use of force.
An officer who fails to intervene to prevent the
unconstitutional use of excessive force by another
officer may be held liable for violating the Fourth
Amendment. Hollingsworth v. City of St. Ann, 800
F.3d 985, 991 (8th Cir. 2015). To establish a failure to
intervene claim, however, the plaintiff must show that
the officer observed or had reason to know that
excessive force would be or was being used. Id. And
that showing was not made here. Kelsay says her
interaction with Ernst resulting in his use of force was
“very quick”: that it took “[m]aybe 30 seconds to a
minute. It was - it was brief.” Filing 53-8 at 85. There
is nothing in the record to suggest that Welch had any
notice Ernst intended to use force, much less any
opportunity to intervene.
Kelsay seems to argue that Welch can be held
liable because he may have indicated to Ernst that she
was to be taken into custody—therefore, Kelsay
argues, Welch “was complicit in causing her to be
tackled.” Filing 57 at 30. But an officer may be held
liable only for his or her own use of excessive force, so
because Welch was not involved in the allegedly
unconstitutional acts of Ernst, Welch could not have

54a
violated Kelsay’s constitutional rights based on
Ernst’s use of excessive force. Grider, 785 F.3d at
1252. And while an officer “can be liable for
nonfeasance, where the officer is aware of the abuse
and the duration of the episode is sufficient to permit
an inference of tacit collaboration[,]” there is no
evidence here that Welch was aware of Ernst’s
takedown before it occurred or had the opportunity to
“take action to deescalate the situation.” Id. at 1253.
As a matter of law, Welch cannot be liable for
nonfeasance under the circumstances of this case. See
id. Accordingly, Kelsay’s excessive force claim against
Welch, in his individual capacity, will be dismissed.
(b) Official-Capacity Claims
Kelsay also brought her excessive force claim
against Ernst and Welch in their official capacities. A
suit against government officials in their official
capacity is another way of pleading an action against
the entity of which they were agents. Baker v. Chisom,
501 F.3d 920, 923 (8th Cir. 2007). So, the actual
defendant with respect to official-capacity claims
against Ernst and Welch is Gage County. See id. at
925.
A local government can be held liable under § 1983
only where the local government itself causes the
constitutional violation at issue. City of Canton v.
Harris, 489 U.S. 378, 385 (1989). Respondeat superior
or vicarious liability will not attach under § 1983. City
of Canton, 489 U.S. at 385; Johnson v. Douglas Cnty.
Med. Dep’t, 725 F.3d 825, 828 (8th Cir. 2013). But
local governing bodies can be sued directly under
§ 1983 for monetary, declaratory, or injunctive relief
where the action that is alleged to be unconstitutional
implements or executes a policy statement, ordinance,

55a
regulation, or decision officially adopted and
promulgated by that body’s officers. Johnson, 725
F.3d at 828 (citing Monell v. Dep’t of Soc. Servs., 436
U.S. 658, 690 (1978)). Moreover, local governments
may be sued for constitutional deprivations visited
pursuant to governmental custom even though such a
custom has not received formal approval through the
body’s official decisionmaking channels. Id. (citing
Monell, 436 U.S. at 690-91). And § 1983 liability may
attach if a constitutional violation resulted from a
“deliberately indifferent” failure to train or supervise.
Atkinson v. City of Mountain View, Mo., 709 F.3d
1201, 1214 (8th Cir. 2013) (citing City of Canton, 489
U.S. at 388.)
Gage County’s Use of Force policy provides that:
No specific rule fits all cases as to how much
force and means may be used in an arrest
and each case must be determined in the
light of its own facts and circumstances. The
person making an arrest is acting lawfully if
the force and means used are such as would
be considered necessary by the ordinary
reasonable person placed in the same
position and if from the standpoint of such a
reasonable person, the force and means
used was apparently necessary, the person
making the arrest if [sic] justified even
though in the light of the actual facts later
discovered such a degree of force or means
was not actually necessary.
Willful inhumanity or oppression toward a
prisoner or unlawfully assaulting or beating
a prisoner is punishable as a crime but if the
assault is aggravated by its violence, it may

56a
amount to a felony and if death ensues, it
might amount to murder.
Deputies shall not use unnecessary force or
violence in making an arrest or in dealing
with a prisoner or any person.
Filing 53-12 at 1. Kelsay’s argument with respect to
that policy is brief:
The policies of Gage county offer little in the
way of guidance to the officers. The policies
basically say “don’t use too much force.” The
expert witness [Sundermeier] proffered by
the Defendant’s [sic] in this case claims the
policy and it “was within the standard use
of force continuum expected to be used by
officers acting within the scope of their
lawful duties.” The policy does not contain a
use of force continuum which is expected.
Filing 57 at 32.
But that argument does not direct the Court to any
facially unlawful county policy or custom. See
Atkinson, 709 F.3d at 1216. Nor does it direct the
Court to evidence that Kelsay’s injuries were caused
by any county “action or inaction, taken with
‘deliberate indifference’ as to its known or obvious
consequences.” Id. And even the complete absence of a
written policy on the use of force would not
demonstrate “deliberate indifference.” See id. A local
government “may not be held liable under § 1983
merely because it failed to implement a policy that
would have prevented an unconstitutional act by an
employee otherwise left to his own discretion.”
Atkinson, 709 F.3d at 1216; see Szabla v. City of

57a
Brooklyn Park, Minnesota, 486 F.3d 385, 390 (8th Cir.
2007).
[A] written policy that is facially
constitutional, but fails to give detailed
guidance that might have averted a
constitutional violation by an employee,
does not itself give rise to municipal
liability. There is still potential for
municipal liability based on a policy in that
situation, but only where a city’s inaction
reflects a deliberate indifference to the
constitutional rights of the citizenry, such
that inadequate training or supervision
actually represents the city’s “policy.”
Szabla, 486 F.3d at 392. And there is neither evidence
nor argument here to support a finding that Gage
County’s failure to adopt a use-of-force policy
including a “use of force continuum” was a “deliberate
or conscious choice by policymakers” that “was the
product of deliberate indifference to the constitutional
rights of its inhabitants.” Id. at 390. Accordingly
Ernst and Welch are entitled to summary judgment
with respect to Kelsay’s official-capacity excessive
force claims. See id.
2. CITY OF WYMORE DEFENDANTS
As above, Kirkpatrick and Bornemeier have been
sued in both their individual and official capacities.
And the City of Wymore has also been sued. The Court
will again consider Kelsay’s individual-capacity and
official-capacity claims separately.

58a
(a) Individual-Capacity Claims
As noted above, Kelsay has three remaining claims
against the Wymore defendants: unlawful arrest,
excessive force, and deliberate indifference to serious
medical needs. None of those claims are cognizable
against Kirkpatrick or Bornemeier.
To begin with, the Court previously dismissed
Kelsay’s unlawful arrest claim, as against Ernst and
Welch, pursuant to Heck, 512 U.S. 477. Filing 28 at 34. That conclusion has equal force with respect to
Kirkpatrick and Bornemeier, and Kelsay’s unlawful
arrest claim will be dismissed as to them as well.
Next, the Court’s reasoning above with respect to
Welch is also dispositive of Kelsay’s excessive force
claim as to Kirkpatrick and Bornemeier. There is
evidence that Kirkpatrick helped handcuff Kelsay
after she was forcibly taken into custody. Filing 17-3
at 2; filing 53-8 at 206. But there is no evidence that
Kirkpatrick and Bornemeier used excessive force, had
any reason to know Ernst intended to use force, or
were in any position to intervene.
Finally, the Court previously dismissed Kelsay’s
claim for deliberate indifference to a serious medical
need as asserted against Ernst and Welch, finding no
evidence of any detrimental effect from any delay in
providing medical treatment. Filing 61 at 2-5. The
same reasoning is even more applicable to
Kirkpatrick and Bornemeier, who also bore no
responsibility for any delay in providing medical care.
(b) Official-Capacity Claims
Kelsay also asserts her claims against the City of
Wymore, and as explained above, her claims against

59a
Kirkpatrick and Bornemeier in their official
capacities are effectively claims against the City as
well. See Baker, 501 F.3d at 925.
The Court will dismiss Kelsay’s claims against the
City for two reasons. First, the Court has already
rejected Kelsay’s claims of a constitutional violation
on the part of Kirkpatrick or Bornemeier, and without
a constitutional violation there can be no § 1983
municipal liability, Hall v. Ramsey Cty., 801 F.3d 912,
920 n.5 (8th Cir. 2015), cert. denied sub nom. Hall v.
Ramsey Cty., Minn., 136 S. Ct. 2379 (2016). Second,
there is no evidence that a policy or custom of the City
of Wymore caused a constitutional violation. See
Elder-Keep v. Aksamit, 460 F.3d 979, 986 (8th Cir.
2006).
Kelsay’s argument to the contrary—which appears
to be limited to her claim for deliberate indifference to
serious medical needs—is premised on two
contentions. First, she claims that Kirkpatrick’s
decisions were official city “policy” because he, as the
Wymore chief of police, was a “policymaker” for the
City of Wymore. But the Eighth Circuit rejected a
similar argument in Atkinson, in which the plaintiff
argued that the police chief for a Missouri city was a
“final policymaker” for the city. 709 F.3d at 1214. The
Court of Appeals explained that identification of a
final policymaking authority for a local government is
a question of state law, and that under Missouri law,
the mayor and the board of aldermen for the city were
the final policymakers. Id. at 1215. Specifically, the
Court of Appeals relied on a Missouri statute
providing that the mayor and board of aldermen were
responsible for the “good government of the city [and]
the preservation of peace and good order.” Id. (quoting

60a
Mo. Ann. Stat. § 79.110); see Copeland v. Locke, 613
F.3d 875, 882 (8th Cir. 2010).
Similar statutory language is found here: under
Nebraska law, it is the mayor of a city of the second
class like Wymore who “shall have superintendence
and control of all the officers and affairs of the city and
shall take care that the ordinances of the city and all
laws governing cities of the second class are complied
with.” Neb. Rev. Stat. § 17-110. The city is empowered
to establish a police department, and define its powers
and duties, which include the power to arrest people
who break the law. Neb. Rev. Stat. §§ 17-118 & 17124. The mayor, with the consent of the city council,
appoints police officers, and the city council adopts
rules and regulations governing the removal,
demotion, or suspension of police officers, including
the chief of police. Neb. Rev. Stat. § 17-107(3).
In other words, under Nebraska state law, it is the
elected officials of a city such as Wymore who are the
final policymakers for the “superintendence and
control of all the officers and affairs of the city.” § 17110; see Copeland, 613 F.3d at 882. Kelsay directs the
Court to neither “state and local positive law” nor
“state and local ‘custom or usage’ having the force of
law” establishing that Kirkpatrick was a “final
policymaker.” See Atkinson, 709 F.3d at 1215. Even if
Kirkpatrick was invested with discretion in exercising
particular functions—and there is scant evidence of
even that much—such discretion “does not, without
more, give rise to municipal liability based on an
exercise of that discretion.” Copeland, 613 F.3d at 882.
In short, any decision Kirkpatrick may have made
regarding medical care for arrestees “is not, as a
matter of law, one over which he has any

61a
policymaking authority.” See id. at 883. And the
record is devoid of any evidence showing that the
elected officials of Wymore delegated such authority
to him. See id.
Second, even if Kirkpatrick could be considered a
policymaker, there is no evidence of any policy set by
Kirkpatrick that is causally connected to any
deprivation of Kelsay’s rights. Kelsay relies on an
affidavit from Gary Redden, who was the safety
training officer for Wymore Emergency Medical
Services (EMS). Filing 60 at 29. Redden avers that he
stopped by Kirkpatrick’s home a few days before
Kelsay’s arrest “to discuss protocol for the working
relationship between the police and the Emergency
Management Responders because he was new to
Wymore police department and because Officer
Bornemeier was also a new officer in need of training.”
Filing 21-7 at 1. Redden avers that there were “some
incidents that were not handled properly” and that
[w]hile I was visiting with him we discussed
protocol of working with the EMS and he
actually disagreed with me about whether if
a person complained of injury or a suspected
medical issue while in custody that he
needed to allow them to get medical
treatment. He argued with me about what
roll [sic] EMS would play on the scene and
said “I can do whatever I want to as an
officer.”
Filing 21-7 at 1. Redden explains that on another
occasion, he had experienced Kirkpatrick “interacting
with EMS that he acted in an unprofessional manner
and was in the way of us treating a patient. Also
borderline practice medicine without a license.” Filing

62a
21-7 at 2. Redden opines that “[t]he protocol in
Nebraska when a person is complaining of injury or
need of medical treatment, Law enforcement in
Nebraska is supposed to call EMS to have the patient
examined.” Filing 21-7 at 2. “There were[,]” Redden
says, “EMS people on duty when Kelsay was injured
and they would have checked her out.” Filing 21-7 at
2.
But the issue in this case is not the proper use of
Wymore EMS, so Redden’s opinion that Kirkpatrick
had not appropriately deferred to Wymore EMS is
beside the point. The issue is whether law
enforcement was deliberately indifferent to a serious
medical need in violation of the Fourteenth
Amendment. See Ryan v. Armstrong, 850 F.3d 419,
424-25 (8th Cir. 2017). And the Court is not aware of
any
authority
establishing
a
constitutional
requirement that emergency medical services be
summoned to the scene of an injury, and deferred to
on the scene, so long as what is done satisfies
constitutional standards. The Court has already
determined that it did. See filing 61 at 2-5. Moreover,
it was Ernst who injured Kelsay, Ernst who took her
into custody, and Ernst who transported her to the
Gage County jail—and Kirkpatrick who eventually
took her from the jail to the hospital. So, there is little
to causally connect any purported “policy” of
Kirkpatrick’s to any delay in Kelsay’s treatment.
In sum, the Court finds no evidence that
Kirkpatrick or Bornemeier violated Kelsay’s
constitutional rights, and no evidence linking the
violations she alleges to any municipal policy or
custom. Kelsay’s claims against Kirkpatrick and

63a
Bornemeier in their individual and official capacities,
and against the City of Wymore, will be dismissed.
IV. CONCLUSION
Qualified immunity is denied with respect to
Kelsay’s excessive force claim against Ernst in his
individual capacity, and that claim may proceed.
Kelsay’s remaining claims are dismissed.
IT IS ORDERED:

1. Ernst and Welch’s motion for summary judgment

with respect to Kelsay’s excessive force claim
(filing 52) is granted in part and in part denied.

2. Kelsay’s excessive force claim against Welch in his
individual capacity, and against Ernst and Welch
in their official capacities, is dismissed.

3. The Wymore defendants’ motion for summary
judgment (filing 54) is granted.

4. Kelsay’s

claims against Kirkpatrick and
Bornemeier in their individual and official
capacities, and against the City of Wymore, are
dismissed.

5. Welch, Kirkpatrick, Bornemeier, and the City of
Wymore are terminated as parties.
Dated this 19th day of May, 2017.
BY THE COURT:
/s/ John M. Gerrard
John M. Gerrard
United States District Judge

